HHS/OIG, Audit -"Medicaid Payments for School-Based Health Services Boston, Massachusetts - July 1999 Through June 2000,"(A-01-02-00001)
Department
of Health and Human Services
"Medicaid Payments for School-Based Health Services Boston, Massachusetts - July 1999 Through June 2000," (A-01-02-00001)
February 27, 2003
Complete
Text of Report is available in PDF format (2.1 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether costs claimed for school-based health services by the Boston Public
Schools through the Commonwealth of Massachusetts were reasonable, allowable and adequately supported in accordance with
the terms of the state Medicaid plan and applicable federal regulations.  The audit period included Medicaid payments
made during the period July 1, 1999 through June 30, 2000.
Boston Public Schools claimed the cost of school-based health services although documentation was inadequate, providers
did not have required qualifications, the Individual Education Plan was invalid, students were absent, and for days when
schools were not open to students.  As a result, we estimate that the Boston Public Schools were overpaid at least
$1,240,526.  We made procedural recommendation to address these issues.  We also recommended that Boston Public
Schools refund amounts that were inappropriately paid by the Medicaid program.  Boston Public Schools officials disagreed
with the findings and recommendations regarding documentation of services and provider qualifications.  They agreed
with the findings and recommendations regarding attendance, Individual Education Plans, and prototype records.